      Department of Homeland Security




            The Town of San Anselmo, California, 

       Did Not Properly Account for and Expend FEMA's 

                Public Assistance Grant Funds 





DS-13-02                                    December 2012

                          OFFlCE OF JNSPECTOR GK'iER,\L
                              Department of Homeland Security



                                        DEC 27 ?012


MEMORANDUM FOR:

                                                                 Agency

FROM:

                              Office of Emergency Management Oversight

SUaJECT:                      Interim Report - The Town of Son Anselmo, Cali/ornia, Did
                              Not Properly Accountfar and E:cpend FEMA's Public
                              A5sistance Grant Funds
                              FEMA Disaster Number 1628-DR-CA
                              Audit Report Number DS-13-02

We are currently auditing Feder~1 Emergency Management Agency (FEMA) Public
Assistance (PA) grant funds awarded to the Town of San Anselmo, California (Town),
PA Identification Number 041-64434-00, for disaster recovery work related to storms,
that caused flooding and mudslides during the period of December 17, 2005, through
January 3, 1006. Our audit objective is to determine whether the Town accounted for
and expended FEMA PA grant funds according to Federal regulations and FEMA
guidelines. The purpose ofthis memorandum is to advise you that, although we have
not yet completed a final audit of the Town for the aforementioned disaster, we
nevertheless identified systemic accounting and documentation issues with the Town's
first appea l for additional funding under Project 3625 that require immediate attention.

We are conducting this performance audit pursuant to the Inspector General Act of
1978, as amended, and according to generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions
based upon our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based upon our audit objective. We
conducted this audit applying the statutes, regulations, and FEMA policies and
guidelines in effect at the time ofthe disaster. At the conclusion of our audit, we plan to
issue our final audit report (notwithstanding the issuance of any additional interim
reports), including any other findings and recommendations.
                                   OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security
   This interim report focuses on Project 3625. As part of this audit, we reviewed applicable
   Federal regulations and FEMA guidelines, as well as previously issued audit reports and
   audit documentation relating to the Town’s claims for project costs, and performed
   other procedures considered necessary to accomplish our audit objective. We did not
   assess the adequacy of the Town’s internal controls applicable to its grant activities
   because it was not necessary to accomplish our audit objective. However, we gained an
   understanding of the Town’s method of accounting for disaster-related costs and its
   policies and procedures for administering activities provided for under the FEMA grant.
   

   

                                         BACKGROUND 


   Severe storms caused the San Anselmo Creek to overflow its banks, overwhelming the
   storm and sanitary sewer systems. As a result, 2 feet of floodwater entered the ground
   floor of the Town’s police station, Town Council chambers, and Town Hall lobby. FEMA
   initially approved Project 3625 with a total estimated cost of $660,659—of which FEMA
   deducted $646,609 for anticipated insurance proceeds, leaving an approved amount of
   $14,050 related to hazard mitigation work (dry flood-proofing work). The project’s scope
   of work (SOW) consisted of funding for building repairs (police station and council
   chambers), replacement of building contents not covered by insurance, and repair of
   damaged vehicles.

   Subsequently, FEMA approved project worksheet versions 1 to 4 and increased funding to
   $830,672 based on actual costs and insurance adjustments. However, during project
   closeout, the Town submitted to FEMA a cost claim of $1,599,777, or $769,105 more
   than what FEMA approved.

   FEMA reviewed the Town’s submission and determined that the additional charges
   were associated with project improvements that substantially changed the approved
   SOW and classified it as an improved project—and capped project funding at $830,672.1
   The Town has requested reimbursement for project-related costs totaling $1,599,777, and
   appealed FEMA’s funding determination. At the time of our audit fieldwork, FEMA was
   evaluating the Town’s first appeal for Project 3625.


                                              RESULTS OF AUDIT

   We were unable to verify the validity and supportability of the $1,599,777 in disaster
   costs the Town charged to Project 3625 and is claiming as part of a first appeal. The claim

   1
    Title 44 Code of Federal Regulations (CFR) 206.203(d)(1) limits funding for improved projects to the original
   estimate to repair the facility to its predisaster condition.

www.oig.dhs.gov                                          2                                                  DS-13-02
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security
   includes costs that are unsupported or ineligible for PA funding, and the Town’s records
   were insufficient to provide an audit trail in support of the claim. As a result, we question
   the Town’s claim in its entirety.

   Finding A – The Claim Includes $577,961 in Unsupported Costs

   The Town’s claim for Project 3625 includes $577,961 in unsupported costs. The Town’s
   records did not include either documentation proving the charges were for FEMA-
   approved expenditures or a justification for incurring the costs.

   Federal regulation and FEMA guidelines stipulate the following:

   •	 Eligibility to receive Federal funds is contingent upon having fiscal controls and
      accounting procedures that permit the tracing of funds, and maintaining records to
      adequately identify the source and application of funds provided for financially
      assisted activities (44 CFR 13.20(b)(2)).

   •	 Accounting records must be supported by such source documentation as canceled
      checks, paid bills, payrolls, time and attendance records, contract, or subgrant
      award documents (44 CFR 13.20(b)(6)).

   •	 Records must be retained for 3 years from the date that the grantee (California
      Emergency Management Agency, or Cal EMA) submits the Town’s final expenditure
      report to FEMA (44 CFR 13.42(b)(c)).

   Federal criteria require the Town to establish and maintain accurate records of events and
   expenditures related to disaster recovery work. The Town did not follow these
   requirements and did not present adequate documentation to support the following:

   •	 $495,107 in charges to repair the Town’s police station, council chambers, and lobby

       o	 Repair charges from the prime contractor totaled $627,275. The Town claimed
          that about 80 percent or $495,107 of the expenses relate to FEMA-eligible work
          and 20 percent to non-FEMA-eligible tasks. The Town’s methodology for
          allocating the costs is not supported by the contractor’s billings, as the billings
          only provide charges for line items and do not identify the completion of the
          FEMA work approved in the project’s SOW. FEMA has previously informed the
          Town that repair costs must be separated through the performance and billing of
          the work.




www.oig.dhs.gov                                  3                                   	      DS-13-02
                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security

   •	 $42,438 in force account labor costs for disaster-related work

       o	 The Town did not retain all timecards related to this expenditure that could
          identify the employee, the disaster task, and the hours charged.

   •	 $40,416 to replace two police motorcycles damaged by the disaster (see figure 1)


                                                          Figure 1.




                          Motorcycles reported damaged were in a shed during the disaster.
                                  Source: Town of San Anselmo, CA, July 25, 2012.

       o	 The Town records do not include written justification documenting the cost-
          effectiveness of replacing versus repairing the equipment or the availability of
          similar used police motorcycles.2 Town officials explained that the motorcycle
          vendor suggested that purchasing new equipment was cost effective. The Town,
          however, did not have documentation to support this assertion.

       o	 Additionally, records show that the damaged motorcycles were less than 3 years
          old and had a cost value of $40,097. The Town used them as trade-ins, and the
          vendor valued them at a total of $5,000.


   2
     When equipment, including vehicles, is not repairable, FEMA will approve the cost of replacement with
   used items that are approximately the same age, capacity, and condition. Replacement of an item with a
   new item may be approved only if a used item is not available within a reasonable time and distance
   (FEMA’s Public Assistance Guide, FEMA 322 (1999), p. 57).

www.oig.dhs.gov                                       4                                       	       DS-13-02
                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security
   We determined that the unsupported costs occurred because the Town did not maintain
   a complete and accurate set of records to account for FEMA-eligible disaster work – thus,
   not providing a sufficient audit trail to validate the supportability and eligibility of the
   project costs.3

   Without adequate supporting documentation, the Town is not eligible to receive
   reimbursement from FEMA totaling $577,961 under Project 3625.

   Finding B – The Claim Includes Costs Not Eligible for Disaster Assistance

   The Town has charged Project 3625 with $81,757 in ineligible costs for services rendered,
   repair work, and equipment replacement.

   Federal regulations stipulate the following:

   •	 The grantee shall make an accounting to the Regional Director, FEMA, of eligible
      costs for each approved large project. In submitting the accounting, the grantee
      shall certify that reported costs were incurred in the performance of eligible work,
      that the approved work was completed, that the project is in compliance with the
      provisions of the FEMA-State Agreement (44 CFR 206.205(b)(1)).

   •	 An item of work must be required as a result of a major disaster to be eligible for
      financial assistance (44 CFR 206.223(a)(1)).

   •	 To be allowable under Federal awards, costs must be necessary, reasonable, and
      adequately documented (2 CFR 225, Cost Principles for State, Local, and Indian Tribal
      Governments, Appendix A, Section C.1.a.j).4

   The Town did not comply with these Federal requirements when charging costs to Project
   3625. We identified the following examples of ineligible costs in the Town’s claim:

   •	 $32,705 in ineligible charges for services rendered pertaining to the restoration of the
      Town’s police station (see table 1)


   3
     Each local government shall establish necessary accounting records, consistent with the local
   government’s financial management system, to account for funds received and disbursed and to provide
   an audit trail. FEMA auditors and the Comptroller General of the United States or their duly authorized
   representatives shall, for the purpose of audits and examination, have access to any books, documents,
   papers, and records that pertain to Federal funds, equipment, and supplies received under these
   regulations (FEMA’s Public Assistance Guide, FEMA 322, Attachment C (1999), p. C-55).
   4
     Office of Management and Budget Circular A-87 relocated to 2 CFR 225 on August 31, 2005, in effect at
   the time of the disaster.

www.oig.dhs.gov                                       5                                       	       DS-13-02
                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security
                                  Table 1. Ineligible Service Costs

              Service Description       Ineligible Costs      Reason for Cost Ineligibility
       Transfer 911 emergency system            $20,000 Cost was paid by another source
                                                           Charges were for a period not
       Portable restroom rentals                   7,625
                                                           covered by the disaster
       Utility costs                               5,080 General operating costs
                                                $32,705

   •	 $22,936 in repairs not included in the FEMA-approved scope of work that included
      hazard mitigation (see table 2)

                                   Table 2. Ineligible Repair Costs
                            Repair Not in the SOW                Ineligible Costs
                  Remove and replace ceiling tiles                       $12,436
                  Frame a new Spanish tile roof; copper
                  gutters; two downspouts; painting                        10,500
                                                                         $22,936

   •    $26,116 for the purchase of new equipment not damaged by the disaster (see table 3)

                                 Table 3. Replaced Equipment
                       Item Description              Quantity               Total
                                                     Replaced               Cost
              Laptop                                    1                     $1,345
              Personal computers with software          4                       4,610
              911 computer                              1                       7,478
              Computer monitors                         3                       1,036
              Keyboards/chairs                       Multiple                   1,013
              Stack chairs                              1                       8,527
              Telephones                                4                         977
              Lamps                                     4                         394
              New stovetop and microwave                1                         736
                            Total                                            $26,116

        o	 The disaster flooded the police station with 2 feet of water. Town officials took
           action to save the equipment prior to the event. Figure 2 shows an example of
           these actions, such as raising the equipment to table and desktop surfaces.




www.oig.dhs.gov                                  6                                  	      DS-13-02
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security
                                                    Figure 2. 





                         Three computers located at the Town’s first floor police station.
                                  Source: Town of San Anselmo, July 25, 2012.

       o	 Town officials said that after protecting the equipment from the flood, they
          moved the equipment to the temporary location from which police were
          operating and continued using it. Since the equipment was not damaged, the
          Town is not eligible to receive Federal reimbursement for the replacement costs.

   We conclude that the $81,757 the Town charged to Project 3625 is ineligible for FEMA
   reimbursement.


                                           RECOMMENDATIONS

   We recommend that the Regional Administrator, FEMA Region IX:

   Recommendation #1: Disallow the Town’s first appeal claim for the $1,599,777 in costs
   for Project 3625 (Federal share $1,199,833) and require the Town to submit a revised
   claim with only project expenses that are eligible for Federal disaster assistance, and are
   supported with adequate documentation.

   Recommendation #2: Remind the Town of its responsibilities:

   •	 Fiscal controls and accounting procedures must permit the tracing of funds, and
      records must be maintained to identify the source and application of funds provided
      for financially assisted activities.




www.oig.dhs.gov                                     7                                        	   DS-13-02
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security

   •	 Accounting records must be supported by such source documentation as canceled
      checks, paid bills, payrolls, time and attendance records, or contract and subgrant
      award documents.

   Recommendation #3: Evaluate thoroughly for eligibility any costs the Town submits for
   Project 3625 and disallow costs not in compliance with Federal requirements and FEMA
   guidelines.


                  DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP

   We discussed the findings and recommendations at an exit conference with Town, Cal
   EMA, and FEMA officials on September 18, 2012. We also provided a written summary
   of our findings and recommendations in advance to FEMA on September 14, 2012, and
   to Cal EMA on September 17, 2012. FEMA and Cal EMA officials withheld comment
   until after we issue our final report. Town officials agreed to document cost adequately
   and resubmit a revised cost claim for Project 3625..

   Within 90 days of the date of this memorandum, please provide our office with a
   written response that includes your (1) agreement or disagreement, (2) corrective
   action plan, and (3) target completion date for each recommendation. Also, please
   include responsible parties and any other supporting documentation necessary to
   inform us about the current status of the recommendations. Until your response is
   received and evaluated, the recommendations will be considered open and unresolved.

   Consistent with our responsibility under the Inspector General Act, we are providing
   copies of our report to appropriate congressional committees with oversight and
   appropriation responsibility over the Department of Homeland Security. We will post
   the report on our website for public dissemination.

   Major contributors to this report are Humberto Melara, Western Region Audit Director;
   Louis Ochoa, Audit Manager; Renee Gradin, Auditor-in-Charge; Paul Sibal, Auditor; and
   Elizabeth Finn, Program Analyst.

   Please call me with any questions, or your staff may contact Humberto Melara, Western
   Region Audit Director, at (510) 637-1463.




www.oig.dhs.gov                               8                                 	      DS-13-02
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security

   APPENDIX
   Report Distribution
   Department of Homeland Security

   Secretary
   Chief Financial Officer
   Under Secretary for Management
   Audit Liaison

   Federal Emergency Management Agency

   Administrator
   Chief of Staff
   Chief Financial Officer
   Chief Counsel
   Director, Risk Management and Compliance
   Chief Procurement Officer
   Audit Liaison (Job Code G-12-035)
   Director, Recovery Division, Region IX
   Deputy Director, Recovery Division, Region IX
   Audit Liaison, Region IX
   Audit Follow-up Coordinator

   Grantee (California Emergency Management Agency)

   Secretary
   Executive Assistant to the Secretary
   Chief of Staff
   Audit Liaison

   State (California)

   California State Auditor, Bureau of State Audits

   Subgrantee (Town of San Anselmo, California)

   Town Manager




www.oig.dhs.gov                                9                   DS-13-02
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
